                                                                Issue Date:
                                                                 January 4, 2010


                                                                Audit Report Number
                                                                2010-AO-1002




TO:        Nelson Bregon, General Deputy Assistant Secretary, D



FROM:      Tracey Carney, Acting Regional Inspector General for Audit, Gulf Coast
              Region, GAH


SUBJECT: State of Louisiana, Baton Rouge, LA, Did Not Always Ensure Compliance
            Under Its Recovery Workforce Training Program

                                   HIGHLIGHTS
 What We Audited and Why

             We performed an audit of the State of Louisiana, Office of Community
             Development (State), Recovery Workforce Training Program (Program)
             administered by the State’s subrecipient, Louisiana Workforce Commission
             (LWC). We initiated the audit as part of the Office of Inspector General (OIG)
             Gulf Coast Region’s audit plan and examination of relief efforts provided by the
             Federal Government in the aftermath of Hurricanes Katrina and Rita. Our audit
             objectives were to determine whether the LWC, as the State’s subrecipient, (1)
             ensured that its subrecipients under agreement expended Program funds for
             eligible expenses and (2) adequately monitored its subrecipients under agreement.


 What We Found

             The LWC did not always ensure that its subrecipients under agreement expended
             Program funds for eligible and supported expenses. In addition, it did not
             maintain adequate internal controls over the Program’s financial management.
             Specifically, the LWC did not (1) ensure that reimbursements were consistent
             with approved budgets before disbursing funds, (2) review its subrecipients’

                                             1
         reimbursements for compliance with agreement requirements or Federal
         regulations, or (3) maintain adequate records to support the eligibility of
         reimbursed costs. These conditions occurred because the State did not ensure that
         the LWC fully complied with the terms of its interagency agreement or applicable
         Federal requirements. As a result, the State misspent $147,681 for ineligible and
         unsupported costs.

         Although the State generally provided technical assistance, the LWC did not
         always adequately monitor its subrecipients under agreement. In addition, the
         LWC did not submit quarterly reports to the State that included all required
         performance data. These conditions occurred because the State did not (1) ensure
         that the LWC had adequate staff to conduct on-site monitoring visits before June
         2008, (2) ensure that the LWC prioritized on-site monitoring after July 2008, (3)
         clearly convey its expectations to the LWC regarding the frequency of on-site
         monitoring, and (4) ensure that the LWC complied with the terms of its
         interagency agreement. Without this monitoring and compliance assurance, the
         State could not (1) effectively monitor the Program’s progress and (2) ensure that
         Program goals were met and deliverables were provided as required.

What We Recommend


         We recommend that HUD’s General Deputy Assistant Secretary for Community
         Planning and Development require the State to repay ineligible costs totaling
         $2,289 and support or repay unsupported costs totaling $145,392. In addition, the
         State must ensure that the LWC (1) completes its subrecipient agreement
         amendments in a timely manner; (2) ensures that its subrecipients comply with the
         approved budgets; (3) receives periodic reviews to ensure that it maintains
         documentation that accurately and adequately identifies and accounts for all
         Program funds disbursed; (4) implements adequate internal controls to ensure that
         sufficient reimbursement reviews are conducted; and (5) implements procedures
         to ensure that its subrecipients comply with laws, regulations, and agreement
         terms. Further, the State must (1) ensure the LWC conducts and maintains
         documentation of on-site monitoring for all subrecipients; (2) ensure the LWC
         maintains adequate staffing levels to ensure that sufficient on-site monitoring
         visits are conducted; (3) clearly convey and document its expectations to the
         LWC pertaining to on-site monitoring; and (4) ensure the LWC submit quarterly
         report data required by the interagency agreement or formally amend the
         reporting requirements.

         For each recommendation without a management decision, please respond and
         provide status reports in accordance with HUD Handbook 2000.06, REV-3.
         Please furnish us copies of any correspondence or directives issued because of the
         audit.




                                          2
Auditee’s Response


           During the audit, we provided the results of our review to the State’s management
           staff and HUD. We conducted an exit conference with the State and HUD on
           November 23, 2009.

           We asked the State to provide comments on our draft report by November 30,
           2009. We gave the State an extension until December 11, 2009, to respond, and it
           provided written comments on that day. The State generally agreed with our
           results and recommendations. The complete text of the auditee’s written
           response, along with our evaluation of that response, can be found in appendix B
           of this report.




                                           3
                           TABLE OF CONTENTS

Background and Objectives                                                           5

Results of Audit
      Finding 1: The LWC, As the State’s Subrecipient, Did Not Always Ensure That   6
      Funds Were Spent for Eligible and Supported Expenses

      Finding 2: The LWC Did Not Always Adequately Monitor Its Subrecipients and 10
      Submit Its Quarterly Reports As Required


Scope and Methodology                                                               15

Internal Controls                                                                   16


Appendixes
   A. Schedule of Questioned Costs                                                  18
   B. Auditee Comments and OIG’s Evaluation                                         19
   C. Reimbursement Results From Sample Review
                                                                                    21




                                           4
                                 BACKGROUND AND OBJECTIVES

The Recovery Workforce Training Program (Program), a $38 million economic development
program, was established by the Louisiana Recovery Authority, in conjunction with the State of
Louisiana, Office of Community Development (State), and the Louisiana Workforce
Commission (LWC). Through collaborative efforts, the Program provides workforce
recruitment, training, and retention strategies for sectors identified as having key roles in the
physical and economic recovery of the State and the hurricane-affected parishes in particular.
Those sectors include (1) construction, (2) healthcare, (3) transportation, (4) advanced
manufacturing, (5) oil and gas, and (6) cultural. The Program addresses the loss of jobs and the
reemployment of the State’s workforce as a top priority in the recovery of the hurricane-
impacted areas.

The State and LWC, which operated under the office of Louisiana’s governor, entered into an
interagency agreement in October 2006 to administer the Program. The State terminated that
agreement, effective June 30, 2008.1 The State then entered into an interagency agreement2 with
the new LWC, formerly known as the Department of Labor, to administer the Program.3 The
LWC’s mission is to lead the development of the system that delivers the workforce that
Louisiana’s current and future employers need.

The LWC’s funding for the Program is provided solely through Community Development Block
Grant (CDBG) disaster recovery funds administered by the State. The interagency agreement
allowed the LWC to execute subrecipient agreements to aid in implementing the Program.
Therefore, it executed 18 subrecipient agreements which were divided among the six sectors.
The interagency agreement required the LWC to (1) monitor its subrecipient performance
measures; (2) monitor and track its subrecipient agreements via budget projections; (3) review
and approve budget amendments; and (4) perform site visits to monitor its subrecipient
expenditures, invoices, progress, completion of services, etc.

As of December 31, 2008, the State had allocated $38 million to the LWC for Program related
expenses incurred by the 18 subrecipients. Of this amount, the LWC had paid more than $13.1
million to the subrecipients. Our audit objectives were to determine whether the LWC, as the
State’s subrecipient, (1) ensured that its subrecipients under agreement expended Program funds
for eligible expenses and (2) adequately monitored its subrecipients under agreement.




1
    The agreement was terminated due to Act 743 of the 2008 Regular Session of the Louisiana Legislature, transferring the administration of the
Program from the LWC (under the office of the Louisiana governor) to a new LWC (formerly known as the Department of Labor).
2
  Effective July 1, 2008.
3
  Therefore, any references concerning activities before July 1, 2008, refer to the former LWC, and any references to the LWC after July 1, 2008,
refer to the newly named LWC.



                                                                         5
                                RESULTS OF AUDIT

Finding 1: The LWC, As the State’s Subrecipient, Did Not Always
Ensure That Funds Were Spent for Eligible and Supported Expenses

The LWC did not always ensure that its subrecipients under agreement expended Program funds
for eligible and supported expenses. In addition, it did not maintain adequate internal controls
over the Program’s financial management. Specifically, the LWC did not (1) ensure that
reimbursements were consistent with approved budgets before disbursing funds, (2) review its
subrecipients’ reimbursements for compliance with agreement requirements or Federal
regulations, or (3) maintain adequate records to support the eligibility of reimbursed costs.
These conditions occurred because the State did not ensure that the LWC fully complied with the
terms of its interagency agreement or applicable Federal requirements. As a result, the State
misspent $147,681 for ineligible and unsupported costs.



 State Requirements


       As HUD’s grantee, the State is responsible for administering and monitoring its CDBG
       disaster-related programs. To aid in its efforts, the State executed an interagency
       agreement with the LWC. According to the interagency agreement, the State required the
       LWC to

           •   Comply with 24 CFR (Code of Federal Regulations) 84.25 and follow accounting
               principles and procedures, use adequate internal controls, and maintain necessary
               source documentation for all costs incurred;
           •   Administer the Program in conformance with Office of Management and Budget
               (OMB) Circulars A-21, A-87, or A-122 as applicable;
           •   Review and analyze its subrecipients’ cost reports and other documentation to
               ensure that (1) reimbursements were consistent with approved budgets, (2) the
               agreements were complied with, (3) costs were eligible and reasonable, and (4)
               requested funds did not exceed immediate need; and
           •   Maintain accounts and project records, including financial records, adequate to
               identify and account for all costs pertaining to the agreement and such other
               records deemed necessary by the State.




                                               6
$147,681 Paid for Ineligible and
Unsupported Costs


     An expense eligibility review of 37 subrecipient reimbursement requests
     (reimbursements) determined that costs in 23 (62 percent) were ineligible or unsupported
     because the reimbursements

         •   Included costs that were not approved under the budget that was applicable at the
             time of reimbursement;
         •   Did not agree with the subrecipient-approved budget amounts;
         •   Included costs that were not allowable or reasonable according to OMB Circular
             requirements, such as costs related to entertainment and limousine services; and
         •   Were missing supporting documentation, such as receipts or invoices.

     As a result, as of December 31, 2008, the State had misspent $2,289 in ineligible and
     $145,392 in unsupported costs. The remaining 14 reimbursements were eligible and
     supported (appendix C).

     In addition, the LWC did not (1) ensure that reimbursements were consistent with
     approved budgets, (2) ensure that its subrecipients complied with the agreement
     requirements, and (3) maintain adequate financial records to identify and support the
     eligibility of the reimbursed costs. This condition displays an internal control weakness,
     as the State did not ensure that the LWC complied with the terms of the interagency
     agreement. The State must (1) ensure that the LWC, supports or repays the $147,681 in
     questioned costs; (2) ensure that subrecipients comply with their approved budgets; (3)
     maintain adequate records that will accurately account for the costs being charged on the
     reimbursements; and (4) implement adequate internal controls to ensure that sufficient
     reviews are conducted before disbursing funds for the reimbursements.


 Agreement Terms and
 Regulations Not Followed

     Although 14 of 37 reimbursements were eligible and supported, the LWC did not follow
     the terms of the interagency agreement for five (13.5 percent), resulting in various
     internal control weaknesses in its financial management of the Program. Specifically,

         •   The reimbursements contained support that inadequately accounted for the totals
             charged on the reimbursements. For example, supporting documentation for
             charges such as salaries or benefits conflicted with the reimbursement amount.
             Although the supported amount was greater than the charged amount, the
             reimbursements did not contain calculations, explanations, or timesheets to
             support how the charges were derived or how they pertained to the Program. As a
             result, the LWC did not adequately account for the reimbursements. However,

                                              7
                 the State’s interagency agreement required that the LWC maintain accounts and
                 project records, including adequate financial records, to identify and account for
                 all costs pertaining to the agreement. (Appendix C)

             •   The reimbursements were not in accordance with the approved budget.
                 Specifically, some costs were either not included in the approved budget or were
                 included in the approved budget, but charged under the incorrect budget category.
                 To correct the issue, the LWC executed retroactive budget revisions, making
                 those costs eligible, as the costs were not eligible at the time of reimbursement.4
                 In doing this, the LWC and its subrecipients violated the terms of their
                 agreements, which required it to report deviations from budget and program
                 plans, and request prior approvals for budget and program plan revisions, in
                 accordance with Title 24 CFR Part 84.25.

        These issues display internal control weaknesses, as the State did not ensure that the
        LWC (1) properly safeguarded and accounted for Program funds and (2) complied with
        applicable rules and regulations. The State should conduct periodic reviews of the LWC
        to ensure that it maintains adequate documentation that accurately and adequately
        identifies and accounts for all funds disbursed. The State also must ensure that the LWC
        complies with the interagency agreement terms and Federal regulations.


    State and LWC Taking Action


        To address the issues, the LWC now requires its program managers to conduct a first-
        level review of the reimbursements. In doing so, program managers can request
        additional documentation and conduct recalculations of costs as deemed necessary. After
        the first-level review, program managers provide the reimbursement to the fiscal manager
        for second-level review and payment processing. In addition, as of August 20, 2009, the
        LWC planned to implement a revised reimbursement request form to alleviate accounting
        ambiguities. This form will require subrecipients to submit reimbursements according to
        each specific task, instead of expense category as previously required.

        Further, in an effort to provide additional clarifications and aid in developing additional
        reimbursement requirements, the LWC has coordinated with the State and begun
        amending subrecipient agreements. Specifically, the amendments were to include more
        specific budget requirements. As of August 21, 2009, of 18 agreements, the LWC had
        completed 10 amendments and was near the completion of six. The LWC had terminated
        the remaining two agreements for poor performance. We acknowledge the State’s and
        the LWC's steps toward improving the Program’s processes.




4
 According to 24 CFR 570.480(c), the State has the authority to amend its agreements, requirements, policies, etc.,
as deemed necessary.

                                                         8
Conclusion

     The LWC did not (1) ensure that reimbursements were consistent with approved budgets,
     (2) ensure compliance with agreement requirements or Federal regulations, and (3)
     maintain adequate records to support the eligibility of reimbursed costs. These
     conditions display various internal control weaknesses regarding the LWC’s financial
     management and its expenditure of funds. Therefore, the State must repay or support
     $147,681 in ineligible and unsupported costs. The State must also ensure that the LWC
     implements adequate internal controls to ensure that sufficient reviews are conducted
     before disbursing funds and complies with applicable laws and regulations and the terms
     of the interagency agreements.

Recommendations

     We recommend that HUD’s General Deputy Assistant Secretary for Community
     Planning and Development require the State to

     1A.     Repay its Program $2,289 in ineligible costs.

     1B.     Support or repay its Program $145,392 in unsupported costs.

     1C.     Ensure that the LWC ensures that its subrecipients comply with the approved
             budgets and complete the subrecipient agreement amendments in a timely manner
             to ensure that the subrecipient budgets related to allowable expenditures are clear.

     1D.     Conduct periodic reviews of the LWC to ensure that it maintains adequate
             documentation to accurately and adequately identify and account for all funds
             disbursed pertaining to the Program.

     1E.     Ensure that the LWC implements adequate internal controls to ensure that
             sufficient reviews are conducted before disbursing funds for the reimbursement
             requests and that its subrecipients maintain compliance with laws, regulations,
             and terms prescribed in their respective agreements.




                                              9
                                                    RESULTS OF AUDIT

 Finding 2: The LWC Did Not Always Adequately Monitor Its
 Subrecipients and Submit Its Quarterly Reports As Required

 Although the State generally provided technical assistance, the LWC did not always adequately
 monitor its subrecipients. In addition, the LWC did not submit quarterly reports which included
 all required performance data. These conditions occurred because the State did not (1) ensure
 that the LWC had adequate staff to conduct on-site monitoring visits before June 2008, (2)
 ensure that the LWC prioritized on-site monitoring after July 2008, (3) clearly convey its
 expectations to the LWC regarding the frequency of on-site monitoring, and (4) ensure that the
 LWC complied with the terms of its interagency agreement. Without this monitoring and
 compliance assurance, the State could not (1) effectively monitor the Program’s progress and (2)
 ensure that Program goals were met and deliverables were provided as required.



 State’s Monitoring
 Requirements


              As part of the interagency agreement, the State also required the LWC to

                    •    Provide technical assistance to its subrecipients.
                    •    Schedule and conduct on-site monitoring visits of its subrecipients. After the
                         visits, the State required the LWC to prepare written monitoring reports, receive
                         written responses to monitoring letters from subrecipients, and ensure that
                         subrecipients completed follow-up corrective actions in a timely manner.
                    •    Prepare and submit quarterly progress reports for all subrecipient activities, which
                         included eight performance measures.5


Technical Assistance Provided
but On-Site Monitoring Not
Conducted

              Although a review of 18 subrecipients determined that the State provided technical
              assistance to 14, it also identified that these 18 (100 percent) subrecipients received
              limited or no on-site monitoring from the LWC, as reflected in the table below.

 5
     The performance measures were (1) percentage of participants entering training who completed training, (2) percentage of participants recruited
 that are placed in employment, (3) percentage of average earnings increase after job placement, (4) percentage of workers placed in jobs that
 retain employment after 6 months of placement, (5) percentage of participants who were displaced by the storm, (6) number of participants who
 completed training, (7) number of participants who were placed in employment, and (8) number of workers retained in jobs per quarter.



                                                                          10
        Number of        Monitored      Technical                           Comment
       subrecipients      (yes/no)      assistance
                                         (yes/no)
                1             Yes           No        This subrecipient received limited on-site monitoring in
                           (limited)                  November 2007. The State explained that this was the
                                                      only on-site monitoring conducted for this subrecipient,
                                                      and at that time, the LWC staff did not have the
                                                      capacity to conduct on-site monitoring. Therefore, the
                                                      monitoring for this subrecipient was limited, as it had
                                                      not been monitored for more than a year.
                1            No             No        This subrecipient had not received on-site monitoring
                                                      since its March 2007 agreement execution. The State
                                                      explained that the LWC, at that time, would not allow
                                                      monitoring of this subrecipient. As of August 2009,
                                                      this subrecipient had not received on-site monitoring.
                1            No             No        This subrecipient appeared to have been monitored by
                                                      HUD but not the LWC.
                1            No             No        For this subrecipient, the State indicated that
                                                      monitoring was conducted but could not provide
                                                      supporting documentation.
                14           No            Yes        The State provided technical assistance documentation
                                                      for these 14 subrecipients. The purpose of the
                                                      technical assistance was not to monitor but to obtain an
                                                      update on the status of the Program.

            According to the State and the LWC, monitoring was limited because the LWC, which
            had administered the Program from its inception6 to June 2008, did not have the staff to
            perform such reviews. As a result, on-site monitoring was not performed. The State
            eventually coordinated with the LWC to initiate subrecipient on-site monitoring in June
            2008. However, effective June 30, 2008, the Louisiana governor’s office terminated the
            State’s agreement with the LWC and continued the Program with a new LWC, effective
            July 1, 2008. Therefore, on-site monitoring was further delayed.

            In addition, the new LWC staff prioritized disbursing funds for backlogged invoices and
            amending subrecipient agreements, instead of monitoring. The lack of on-site monitoring
            continued, and monitoring visits were not scheduled to commence until late April 2009.
            Therefore, the State had not ensured that the LWC adequately monitored all subrecipients
            as required by the interagency agreement. The State must ensure that the LWC (1)
            conducts and maintains documentation of on-site monitoring for all 18 subrecipients and
            (2) maintains adequate staffing levels to ensure that it conducts sufficient subrecipient
            monitoring.




6
    October 2006.

                                                     11
    State’s Expectations Not
    Specific

             Although the interagency agreement between the State and the LWC required the LWC
             to conduct on-site monitoring of its subrecipients, it did not specifically define the
             expectations or requirements related to the frequency of those visits. Specifically, the
             interagency agreement lacked clarity regarding the number of expected on-site
             monitoring visits throughout the duration of the Program. Therefore, the State must
             amend the interagency agreement to ensure that it clearly conveys and documents the
             LWC’s expectations related to the frequency of on-site monitoring.


    Reporting Not in Compliance
    with Agreement

             The State did not ensure that the LWC’s quarterly reports included all of the data
             required by the interagency agreement. Between October 2006 and December 31, 2008,
             the LWC submitted seven quarterly reports to the State.7 However, a review of the seven
             reports determined that three did not include a significant amount of data required by the
             interagency agreement.

             Regarding the required data, the interagency agreement required the LWC to include
             eight performance measures in its reports. However, on May 15, 2008, the State
             instructed the LWC to amend the reports to include only three of the performance
             measures. When asked, the State indicated that it did not provide a revised policy or
             amendments to the interagency agreement that documented that the data were no longer
             required and stated that the reporting was a “moving target” and continued to change.
             Since there was no formal written documentation approving the changes, the LWC
             should have provided the reports in accordance with the interagency agreement.

             According to the State, the reports were one of the tools used to aid in monitoring the
             LWC's compliance with the Program. Therefore, the State must ensure that the LWC
             submits reports, including all required data, or amend its reporting requirements in the
             agreements to ensure that all 18 subrecipients (1) follow the scope of work and establish
             timetables, (2) accurately report levels of accomplishment, and (3) collect and correlate
             all data.

The State’s and LWC’s
Progress


             As of April 30, 2009, the State and the LWC had made progress and commenced on-site
             monitoring. As of August 24, 2009, of 18 subrecipients, the LWC had completed on-site
             monitoring visits for 15, with 3 remaining. For the 15 completed on-site monitoring

7
    Quarters 2-4 for year 2007 and quarters 1-4 for year 2008.

                                                                 12
     visits, seven were conducted between April 30 and July 29, 2009, and the LWC had
     completed the monitoring reports. For the remaining eight, the LWC was in the process
     of drafting the monitoring reports.

     Overall, the monitoring reports included concerns related to file management, financial
     management, fiscal compliance, questioned costs, and procurement. The LWC's
     recommendations included but were not limited to subrecipients (1) conducting steps to
     resolve questioned costs, using a cost-price detail form and additional support
     documentation, and (2) establishing cost reasonableness and deliverable information for
     procured services, etc. Generally, it appeared that the LWC had determined that the
     subrecipient files and financial data (e.g., general ledgers, payroll journals) were
     adequately maintained and the internal controls over financial information complied with
     applicable CDBG laws and regulation.

Conclusion


     The State, through the LWC, did not always ensure that it adequately monitored
     subrecipients under agreement or submitted quarterly reports in compliance with the
     interagency agreement. Specifically, although technical assistance was provided to 14 of
     18 subrecipients, a review determined that all 18 received limited or no monitoring as
     required by the interagency agreement. Further, three of seven quarterly reports that
     LWC submitted to the State did not contain all performance measure data required by the
     interagency agreement. These conditions occurred because the State did not (1) ensure
     that the LWC had adequate staff to conduct on-site monitoring visits before June 2008,
     (2) ensure that the LWC prioritized on-site monitoring after July 2008, (3) clearly convey
     its expectations to the LWC regarding the frequency of the on-site monitoring, and (4)
     ensure that the LWC complied with the terms of its interagency agreement. Without this
     monitoring and compliance assurance, the State could not (1) effectively monitor the
     Program’s progress and (2) ensure that Program goals were met and deliverables were
     provided as required.

     The State must ensure that the LWC consistently conducts and maintains documentation
     of on-site monitoring for all subrecipients, maintains adequate staffing levels to ensure
     that sufficient subrecipient monitoring will be conducted, and submits the quarterly
     reports with all required performance measures or formally amend the reporting
     requirements to reflect the change. The State must also ensure that it clearly conveys and
     documents the LWC’s expectations pertaining to the frequency of on-site monitoring.

Recommendations



     We recommend that HUD’s General Deputy Assistant Secretary for Community
     Planning and Development require the State to



                                             13
2A.   Ensure that the LWC conducts and maintains documentation of on-site
      monitoring for all subrecipients.

2B.   Ensure that the LWC maintains adequate staffing levels to ensure that sufficient
      subrecipient on-site monitoring will be conducted.

2C.   Clearly convey and document the LWC’s expectations pertaining to the frequency
      of monitoring (e.g., number of visits to be conducted, frequency of those visits).

2D.   Submit the quarterly reports with data required in the interagency agreement or
      formally amend the reporting requirements to reflect the change.




                                      14
                                         SCOPE AND METHODOLOGY

We conducted our audit at the State’s and the LWC’s office in Baton Rouge, LA, and the HUD
Office of Inspector General (OIG) office in New Orleans, LA. We performed our audit work
between March and October 15, 2009.

To accomplish our objective related to expense eligibility, we used the LWC’s disbursement data
for 18 subrecipients as of December 31, 2008. Through file reviews, we determined that the
reimbursement data were generally reliable. Between June 26, 2007, and December 05, 2008,8
the reimbursement data contained a universe of 329 reimbursements. We conducted a
preliminary nonstatistical sample review of six invoices, based upon highest and average dollar
amount. Due to the results of the preliminary sample, we expanded our review to include a
stratified proportional statistical sample of 31 invoices pertaining to all 18 subrecipients,9 which
were randomly selected. Therefore, the reimbursements reviewed totaled 37 reimbursements.
We reviewed the hard-copy files, as well as additional documentation provided by the State and
LWC, for the 37 reimbursements to evaluate whether the reimbursement expenses were eligible
and supported according to the executed agreements and Federal regulations.

To accomplish our objective related to monitoring, we selected a 100 percent sample of the 18
subrecipients. We reviewed monitoring reports, technical assistance notes, and quarterly reports
to evaluate whether the State ensured that the LWC monitored the subrecipients through on-site
monitoring and submitted quarterly reports as required.

In addition to the reviews, we

       •     Reviewed the HUD-approved action plan, HUD and State grant agreements, State and the
             LWC interagency agreement and amendments, the LWC and 18 subrecipient agreements
             and budgets, State and the LWC written policies and procedures, the Code of Federal
             Regulations, public laws, and other legal authorities relevant to the CDBG disaster
             recovery grant;
       •     Reviewed reports issued by HUD and the Louisiana legislative auditor’s office; and
       •     Interviewed key HUD, State, and LWC staff.

Our audit period covered October 1, 2006, through December 31, 2008. We conducted the audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.




8
    Dates were based on the dates the draw requests were sent to the State.
9
    For the stratification sample, we used 18 strata related to the 18 subrecipients.



                                                                            15
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations as well as the systems for
measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Program operations - Policies and/or procedures that management has
                      implemented to reasonably ensure that subrecipients comply with the
                      monitoring and expense eligibility requirements.

               •      Validity and reliability of data - Policies and/or procedures that
                      management has implemented to reasonably ensure that data regarding
                      expensed invoices are valid and reliable.

               •      Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that CDBG disaster
                      fund use is consistent with HUD’s laws and regulations.

               •      Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that CDBG disaster funds are
                      safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if internal controls do not provide reasonable
               assurance that the process for planning, organizing, directing, and controlling
               program operations will meet the organization’s objectives.



                                                 16
Significant Weakness


           Based on our review, we believe that the following items are significant
           weaknesses:

               •   The State did not ensure that the LWC (1) ensured that reimbursements
                   were consistent with approved budgets before disbursing funds, (2)
                   reviewed the subrecipients’ reimbursements for compliance with
                   agreement requirements or Federal regulations, and (3) maintained
                   adequate records to identify and/or account for reimbursed funds (see
                   finding 1).

               •   The State did not always ensure that the LWC monitored its subrecipients
                   (see finding 2).

               •   The State did not always ensure that the Louisiana Workforce
                   Commission complied with the terms of the interagency agreement (see
                   findings 1 and 2).




                                           17
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

 Recommendation          Ineligible 1/                     Unsupported
        number                                                      2/
      1A                      $2,289

      1B                                                      $145,392

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
Comment 2




Comment 3




            20
Comment 4




Comment 5




            21
Comment 6




            22
Comment 7




Comment 8




Comment 9




            23
Comment 10




Comment 11




             24
25
                         OIG Evaluation of Auditee Comments

Comment 1   The State and LWC concurred that the Program's processes and controls did not
            always ensure that all funds were spent for eligible and supported expenses during
            the HUD OIG's audit period. The State asserted that it had been working together
            with the LWC to improve and correct the Program's processes and controls.

            We acknowledge the State's actions to improve the Program’s processes and
            controls.

Comment 2   In response to recommendation 1A, the State asserted that it and the LWC
            reviewed the $4,041 in ineligible costs and would supply the HUD OIG with a
            spreadsheet and documentation to support or justify all but $652 of the costs.

            We reviewed the documentation provided by the State and agreed that $3,389 of
            the ineligible costs were eligible and adequately supported. However, $652 of the
            costs remained ineligible. In addition, based upon our review of supporting
            documentation, provided by the State for disbursements deemed unsupported, we
            determined that an additional $1,637 was ineligible. Specifically, the costs were
            ineligible because the costs were either (1) not allowable under the subrecipient
            agreements, (2) duplicate payments, or (3) overpayments. As such, we amended
            our recommendation and Finding 1 to reflect $2,289 in ineligible costs.

Comment 3   In response to recommendation 1B, the State asserted that it and the LWC
            reviewed the $248,500 in unsupported costs and would supply HUD OIG with a
            spreadsheet and documentation to support all but $18,726 of these costs.

            We reviewed the documentation provided by the State and agreed that $103,108
            of the $248,500 of unsupported costs were eligible and adequately supported.
            However, we determined that the remaining $145,392 of costs were still
            unsupported. Specifically, the costs were unsupported because either (1) the State
            referenced a budget revision to support the costs, but did not provide the approved
            budget revision, or (2) costs could not be corroborated to the budget using the
            additional supporting documentation. As such, we amended our recommendation
            and Finding 1, to reflect $145,392 in unsupported costs.

Comment 4   In response to recommendation 1C, the State asserted it has been taking internal
            measures to ensure subrecipient agreement amendments are completed in a timely
            manner. In addition, the State stated that it monitored the LWC's amendment
            process and was satisfied with the timeliness and effectiveness of this process.
            Further, the State stated that as of February 2009, the Program staff had amended
            all active agreements and all agreements were approved by the Division of
            Administration, Office of Contractual Review. The State also indicated that
            Program staff developed an internal policy to approve only reimbursements for
            costs that are allowable under current and approved budgets.



                                            26
            We acknowledge the State's proactive measures in ensuring that (1) the
            subrecipient agreements were amended and (2) the Program staff developed an
            internal policy to approve only reimbursements allowable under current and
            approved budgets.

Comment 5   In response to recommendation 1D, the State asserted that it monitored
            subrecipients in conjunction with the LWC between April and September 2009.
            The State stated that at that time, it provided technical assistance to ensure the
            LWC either monitored or received enough documentation from subrecipients to
            ensure funds were reimbursed for eligible and supported costs. The State asserted
            that as a result, the LWC changed its internal approval process and the new
            process is monitored continually by the State through draw requests.

            We acknowledge the State's approach to ensuring that the LWC monitor and
            receive enough documentation from subrecipients to ensure funds are reimbursed
            for eligible and supported costs.

Comment 6   In response to recommendation 1E, the State recognized that additional controls
            were needed. The State asserted that the staff structure for the Program was
            redesigned to provide adequate internal controls and increase the amount of
            technical assistance offered to subrecipients at each stage of the reimbursement
            process. The State commented that this redesign adds assurance that only
            allowable costs are reimbursed.

            We acknowledge the State's approach to implementing adequate internal controls.

Comment 7   The State concurred that the LWC did not adequately monitor its subrecipients
            and did not submit quarterly reports as required during the HUD OIG's audit
            period. The State asserted that it developed responses to the recommendations in
            which it believed would resolve the findings.

            We acknowledge the State's proactive measures in resolving the findings.

Comment 8   In response to recommendation 2A, the State asserted that it (1) requested that the
            LWC coordinate a series of on-site visits during April and September 2009, (2)
            received copies of the reports and correspondence generated from the on-site
            visits, and (3) monitored the LWC to ensure that the LWC is maintaining records
            of the monitoring documents and responses in the files. Further, the State stated
            that the LWC planned to conduct another series of on-site visits in 2010, since the
            Program was extended another year.

            We acknowledge the State's efforts to ensure subrecipients are monitored and
            documentation is maintained.

Comment 9   In response to recommendation 2B, the State asserted that as of February 2009,
            the LWC had reached its staffing goal and was able to conduct sufficient

                                            27
              monitoring, reviews, and provide sufficient technical assistance to its
              subrecipients. The State noted, however, that the Program Director resigned as of
              September 2009 and the LWC was operating with one less staff member. Finally,
              the State agreed to recommend to the LWC the necessity to increase the Program
              staff and noted that the LWC asked for additional funds to incorporate the LWC's
              agency monitoring team to conduct frequent on-site monitoring visits of the
              subrecipients.

              We acknowledge the State's proactive measures for ensuring that the LWC
              maintains adequate staffing levels.

Comment 10 In response to recommendation 2C, the State asserted that it will require the LWC
           to submit a monitoring plan for its review and approval. In addition, the State
           stated that it contracted with Reznick to create a comprehensive monitoring plan
           for its Disaster CDBG activities. Further, the State stated that each CDBG
           program received its own program specific monitoring plan that includes a risk
           assessment, which will be used as a guide when the State determines the
           frequency of monitoring visits. The State asserted that it will also use this for
           assessing the LWC's monitoring plan.

              We acknowledge the State's approach to ensuring that the frequency of on-site
              monitoring visits is clearly conveyed to the LWC.

Comment 11 In response to recommendation 2D, the State asserted that the original agreement
           for the Program had quarterly data deadlines that were two weeks later than the
           required HUD deadline. The State also asserted that the amended agreements
           require submissions by the tenth day of the month, thereby allowing the LWC
           staff ample time to compile and submit data required in the interagency agreement
           by the set deadline.

              We acknowledge the State's actions regarding amending the quarterly report
              submission deadlines. However, the State must ensure that either the LWC
              submits quarterly reports that include the eight required performance measures; or
              that it amend its reporting requirements by revising its policy or amending the
              interagency agreement between it and the LWC.




                                              28
Appendix C

   RESULTS FROM REIMBURSEMENT SAMPLE REVIEW

  Sample   Grant #   Request   Paid amount OIG-identified OIG-identified      OIG-identified
                     number                 eligible costs ineligible costs    unsupported
                                                                                  costs


    1      649069       8        $139,799          $139,799       $0                $0
    2      649662       1         668,345          668,345         0                 0
    3      649661      39          8,670             8,596         0                74
    4      649006      10         130,263          130,263         0                 0
    5      649668       4          49,231           48,376        0                855
    6      649668       5         511,425          511,425         0                 0
    7      649066       6          34,540           23,302         0             11,238
    8      649067       9          7,846             3,249         0              4,597
    9      649068       2          73,639           26,243       142             47,253
    10     649069      12          28,869           28,869        0                 0
    11     649069      19          97,597           97,598        0                 0
    12     649070       8         107,221          104,150         0              3,071
    13     649103      10           819               819          0                 0
    14     649103      11          21,262           21,262        0                 0
    15     649203       3          61,647           61,026       621                0
    16     649661      21          3,346             1,847       857               642
    17     649661       7          13,370              0           0             13,370
    18     649661      31          5,503             5,503         0                 0
    19     649661      15          3,820             3,779        41                 0
    20     649662      21          33,207           33,207        0                 0
    21     649662      12          65,077           50,282         0             14,795
    22     649663      14          93,889           93,889        0                 0
    23     649664       6         110,988           99,498         0             11,490
    24     649664      16          19,835           16,962        0               2,873
    25     649665      10         155,553          155,553         0                 0
    26     649667       5          27,302           17,210         0             10,092
    27     649668       1          5,781             5,781         0                 0
    28     649669       6          5,513              272          0              5,241
    29     649669       1          6,441              293          0              6,148
    30     649670       2          13,714           10,643        0               3,071
    31     649671       4          7,383             7,383         0                 0
    32     649671      12          10,895           10,057        31               807
    33     649672      13          6,580             4,497         0              2,083
    34     649672      38          7,880             6,838         0              1,042
    35     649672       2          28,528           24,405       597              3,526
    36     649672      16          7,754             5,671         0              2,083
    37     649672      30          1,791              750          0              1,041
            Totals              $2,575,323        $2,427,642    $2,289          $145, 392




                                             29
